BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Royal Truck
& Trailer Sales and Service, Inc., v. Mike Kraft and
Kelly Matthews alkla Kelly Schlimmer, was sent via
Three Day Service to the U.S. Supreme Court, and via
Three Day and e-mail service to the following parties
listed below, this 26th day of October, 2020:
ANTHONY M. SCIARA

Counsel of Record
ROYAL TRUCK & TRAILER
311 East Cady Street
Suite C
Northville, Michigan 48167
(248) 773-3775
asciara@royaltrailersales.com
Counsel for Petitioner
RICHARD T. HEWLETT
SALVATORE JOSEPH VITALE, JR.

VARNUMLLP

39500 High Pointe Boulevard
Suite 350
Novi, MI 48375
(248) 567-7400
rthewlett@varnumlaw .com
sjvitale@varnumlaw.com

Counsel for Respondents

, BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive

Franklin Square

Suite l 02

1300 I Street, NW, Suite 400E

, Cincinnati, Ohio 45249

Washington , DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 26, 2020.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

( J ~ d~ / df}dO

1::!~~li: Du&/_

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
Februa~y 14, 2023

